tv

*■?

9o

No. 2,0

SUPREME COURT OF THE UNITED STATES
MICHAEL DRAKE,
Petitioner,

SftSlSv'

\mlB

vs.

M

COMMONWEALTH OF PENNSYLVANIA
Respondent.

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
The petitioner, Michael Drake, asks leave to file the attached petition for a writ of
certiorari without prepayment of costs and to proceed in forma pauperis.
Petitioner has previously been granted leave to proceed in forma pauperis in the
following court(s):

FILED
MAR 1 B 2021

Philadelphia Court of Common Pleas
Superior Court of Pennsylvania
Supreme Court of Pennsylvania

OFFICE OF THE CLERK
RllPRFME COURT. U.S.

Petitioner’s affidavit or declaration is not attached because the court below appointed
counsel in the current proceeding, and a copy of the order of appointment is appended.
Unfortunately, court appointed counsel is not barred in the Supreme Court. As such, this
petition is being filed pro se.

/

L
Date:

mt /C

£/

Mrchael Drake, LK-2454
SCI Benner Township
301 Institution Drive
Bellefonte, PA 16823

'*

Letter of Appointment

Commonwealth of Pennsylvania
Court of Common Pleas
County of Philadelphia
1st Judicial District

Commonwealth of Pennsylvania
v.
Michael Eric Drake

Thomas Patrick Ferrant
1735 Market St Ste 3750
Philadelphia, PA 19103

Docket No:
PID:

CP-51-CR-0012343-2011
0581530

RE: Michael Eric Drake - Defendant
19 W Spruce ST
Norristown, PA 19401

Appointment Date: 08/08/2016
Invoice Number: 51-2016-1000012539
State ID: 319002
Case Role: Lead Attorney

ORDER
Pursuant to Pa.R.Crim.P. No. 122 Judge Unassigned has appointed you in the above captioned case.
This appointment is not transferable.
Your entry of appearance is being automatically entered pursuant to Pa.R.Crim.P. No. 120 (A)(2), and your appointment is effective from the time of
appointment through final judgment and any proceedings upon direct appeal including new trials, if any, unless you are permitted to withdraw as
provided in Pa.R.Crim.P. No. 120 (B).
Acceptance of this appointment constitutes certification that you maintain a principal office in Philadelphia County as required by Administrative
Governing Board Directive Number 2 of 1997.
This Order authorizes the defendant to proceed in forma pauperis in the First Judicial District, and defendant may proceed in forma pauperis on
appeal as provided in Pa.R.A.P. 551 et seq. As defendant's court appointed counsel, you are entitled to receive notes of testimony, in an electronic
format only (via email), at no cost to you or to the defendant provided that you email a Transcript Order form (available at
http://www.courts.phila.gov/forms) to Court Reporter Administration at the following email address: transcripts@courts.phila.gov. To ensure
timely transcription of required notes of testimony, hand-delivered and mailed requests will NOT be accepted.
In the event you are replaced by another court appointed attorney, you must provide new counsel a copy of your entire case file, including all
pleadings, documents and other materials, including notes of testimony, you received during your representation of the defendant in connection with
this case.
Compensation for service as court-appointed counsel, expert witnesses, and investigators shall be allowed as provided by local rules applicable to
the appointment's specific Case Type. Upon filing the Counsel Fee Petitions and Payment Vouchers with the Office of Judicial Records, they will be
forwarded to the Counsel Fee Unit for review and processing.
Counsel understands and agrees that pursuant to Administrative Order No. 02-2012 issued on April 3, 2012 by Administrative Governing Board of
the First Judicial District, effective July 1, 2012, upon judicial approval of the amount of the counsel fee and costs to be paid, payment of the
approved fee is the obligation of the City of Philadelphia and payment shall thus be issued by the City of Philadelphia directly to the court-appointed
counsel.
Additional information concerning compensation and payment processing will be available on the website of the First Judicial District at:
http://www.courts.phila.gov/deDartments/financial.services.asD and from the City of Philadelphia at (215) 686-5639.

Event Date
10/20/2016- 9:00 am

Location
206

Type
PCRA

Judge

Comments regarding Counsel Appointments
PCRA - NCD: 10/20/16 SUITE 206 - SCHEDULING CONFERENCE

CPCMS 3542

Printed: 08/08/2016 10:54:50AM

